         U.S. Department of Energy
         Office of Inspector General
         Office of Audits and Inspections




Audit Report
Implementation of the Recovery Act
at the Savannah River Site




OAS-RA-L-11-12                    September 2011
                                  Department of Energy
                                    Washington, DC 20585
                                       September 29, 2011


MEMORANDUM FOR THE MANAGER, SAVANNAH RIVER OPERATIONS OFFICE


FROM:                    Daniel M. Weeber, Director
                         Environment, Technology, and Corporate Audits Division
                         Office of Inspector General

SUBJECT:                 INFORMATION: Audit Report on "Implementation of the Recovery
                         Act at the Savannah River Site"
                         Audit Report Number: OAS-RA-L-11-12

BACKGROUND

The American Recovery and Reinvestment Act of 2009 (Recovery Act) provided the Department
of Energy (Department) $5.1 billion for Defense Environmental Cleanup. These funds have
afforded the Department's Office of Environmental Management (EM) the opportunity to reduce
its operational footprint and associated life cycle costs by accelerating the completion of
environmental goals at EM's nuclear weapons cleanup sites. At the Savannah River Site (SRS),
in Aiken, South Carolina, the Department allotted more than $1.6 billion in Recovery Act funds
to accelerate the completion of existing EM projects. EM plans to expend all Recovery Act
funding at SRS by December 2012. The mission objectives of the Savannah River Recovery Act
Program are to accelerate:

        Decontamination and decommissioning of inactive nuclear facilities and the remediation
        of contaminated soil and groundwater;

        Disposal of transuranic (TRU) and low-level radioactive waste; and,

        Infrastructure improvements to the liquid waste system to support the disposal of tank
        waste.

In light of the importance of these activities and the amount of funding involved, we initiated this
audit to determine whether the Department is effectively and efficiently achieving Recovery Act
goals and objectives at the SRS.

CONCLUSIONS AND OBSERVATIONS

Overall, our review of Recovery Act activities at SRS found that the site generally complied with
Recovery Act requirements we tested, such as reporting, ensuring the flow down of requirements
to subcontracts, and segregation of funds. According to SRS officials, Recovery Act projects are
on schedule, are within estimated costs, and goals and objectives are being met. We did,
however, identify a concern regarding the accurate distribution of costs associated with staff
augmentation1 contractors working on Recovery Act Projects.

                                             Recovery Act Goals

We found that the five Recovery Act Projects funded at SRS supported the Department's overall
goals to reduce EM's operational footprint and accelerate the disposal of radioactive waste. EM
utilized two existing SRS contractors to execute the projects: Savannah River Nuclear Solutions,
LLC, (SRNS) and Savannah River Remediation, LLC (SRR). To reduce the SRS footprint,
SRNS planned the in-situ disposition of three nuclear reactors and completion of area cleanup
activities, including demolition of inactive facilities and remediation of contaminated soil. To
support the accelerated disposal of the SRS radioactive waste inventory, SRNS planned to
dispose of 5,000 cubic meters of legacy TRU waste and SRR planned to enhance the Liquid
Waste System infrastructure and accelerate integration with the Salt Waste Processing Facility.

                                  Project Cost and Schedule Performance

Our review of SRS Monthly Project Reviews, SRNS and SRR supporting documentation, and
discussions with project management, disclosed that, overall, the SRS Recovery Act funded
projects are expected to be completed on time and within budget. At the time of our audit,
approximately $1.2 billion of the $1.6 billion in Recovery Act funds had been expended. As of
July 13, 2011, the Federal officials responsible for the Savannah River Recovery Act Program
reported the following status for major activities under the five projects funded by the Recovery
Act:

           The P&R Area Completion Project is on track to be completed on schedule. SRNS has
           completed 81 percent of the overall project and expended $297 million of the allotted
           $418 million. The P-Area and R-Area ash basins were remediated and capped ahead of
           schedule. Also, the in-situ disposition of the P and R Reactors are essentially complete
           with debris disposal continuing on schedule.

           The M&D Area Completion Project is progressing as planned. SRNS has completed
           82 percent of the project and expended $18 million of the allotted $24 million. In fact,
           the closure of M-Area in October 2010, was EM's first area closure using Recovery Act
           funds.

           The Site-Wide Completion Project, which included the May 2010 demolition of the
           K-Reactor Cooling Tower and the in-situ disposition of the Heavy Water Components
           Test Reactor, is on schedule and within budget. SRNS has completed 91 percent of the
           project and expended $189 million of the allotted $236 million.

           The Liquid Waste Systems Recapitalization Project is also on schedule and within cost.
           SRR has completed 77 percent of the project and expended $153 million of the allotted
           $200 million.

1
  Staff augmentation is a mechanism for temporarily increasing staffing on an as needed basis by subcontracting for
individuals with specific labor skills.
                                                         2
         The Solid Waste and Accelerated TRU Waste Disposition Project is on track to be
         completed on schedule. SRNS has completed 76 percent of the project and expended
         $491 million of the allotted $738 million. As of July 2011, the Federal Project Director
         of the TRU waste portion of the project reported that SRNS has dispositioned, or
         prepared for dispositioning, approximately 2,000 cubic meters of the legacy TRU waste
         and is on track to complete remediation and characterization to prepare the remaining
         3,000 cubic meters for shipment by December 2012.

                                        Cost Distribution

Our analysis of a judgmental sample of cost transactions disclosed that SRNS did not always
properly distribute costs invoiced under staff augmentation contracts to Recovery Act Project
accounting codes. Specifically, of the $107,622 in staff augmentation cost distribution
transactions included in our review, we identified $17,236 of invoiced costs, in 7 of 24
transactions, that were not charged to the appropriate project activity codes. The system used to
track staff augmentation invoices allowed approving personnel to distribute costs by manhours
worked according to selected timesheets; however, the system did not have controls in place to
ensure that all timesheets for the invoiced period were selected for inclusion in the distribution
calculation. Additionally, the system did not take into account the difference between standard
and overtime rates in distributing costs to manhours. As a result, invoiced costs were not always
accurately distributed to correct project activity codes.

When we brought this matter to SRNS's attention, we were informed that steps had been taken to
correct some misapplied distributions and prevent future errors. SRNS management indicated
that it planned to implement a new accounts payable system effective October 1, 2011, that
would automate the process and better align staff augmentation invoicing with cost distribution
to Recovery Act Projects.

Path Forward

We believe that management's planned actions appear reasonable. However, until the new
system is in place, we suggest that SRNS and Departmental management review manual
adjustments to the current system, as necessary, to ensure the accuracy of staff augmentation cost
distributions.

No formal recommendations are being made in this report; therefore, a response is not required.
We appreciate the cooperation of your staff and the various SRS elements that provided
information or assistance.

Attachment

cc: Deputy Secretary
    Associate Deputy Secretary
    Under Secretary for Nuclear Security
    Chief of Staff
    Acting Assistant Secretary for Environmental Management



                                                3
                                                                                      Attachment


                       OBJECTIVE, SCOPE AND METHODOLOGY

OBJECTIVE

The objective of this audit was to determine whether the Department of Energy (Department)
effectively and efficiently achieved American Recovery and Reinvestment Act of 2009
(Recovery Act) goals and objectives at the Savannah River Site (SRS).

SCOPE

This audit was performed between August 26, 2010, and July 22, 2011, at the Department's SRS
in Aiken, South Carolina. The scope of our audit included a review of Office of Environmental
Management (EM) projects at SRS funded by the Recovery Act.

METHODOLOGY

To accomplish the objective of this audit, we:

        Reviewed the Recovery Act legislation and related laws, regulations, Federal guidance
        and Departmental policies and procedures;

        Assessed the relevance of findings from prior Recovery Act audits and reviews;

        Reviewed modifications to the Savannah River Nuclear Solutions, LLC (SRNS) and
        Savannah River Remediation, LLC (SRR) contracts related to Recovery Act Project
        activities;

        Identified specific goals and objectives related to the SRS Recovery Act Projects;

        Examined SRS Recovery Act Project plans, including baselines, performance
        parameters, and risk mitigation strategies;

        Interviewed key personnel with EM's Savannah River Recovery Act Program, SRNS
        and SRR;

        Performed transaction testing on a judgmental sample of project costs including a
        limited review of related SRNS and SRR subcontracts; and,

        Reviewed the current status of SRS's five major Recovery Act Projects.

We conducted this performance audit in accordance with generally accepted Government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our conclusions based on our
audit objectives. We believe that the evidence obtained provides a reasonable basis for our
conclusions based on our audit objective. We also found that the Department had established



                                                 4
                                                                            Attachment (continued)


performance measures in accordance with the Government Performance and Results Act of 1993.
Because our review was limited, it would not necessarily have disclosed all internal control
deficiencies that may have existed at the time of our audit. We assessed the reliability of
computer-processed data used to identify the population of project costs selected for transaction
testing and the reliability of project reports and determined that they were sufficiently reliable to
achieve the objectives of our audit. Management waived an exit conference.




                                                 5
                                                                IG Report No. OAS-RA-L-11-12

                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall
   message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should we have
   any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Felicia Jones (202) 253-2162.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page
                                         http://energy.gov/ig

       Your comments would be appreciated and can be provided on the Customer Response Form
                                      attached to the report.
